UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

Bureau of Competition
Alden F. Abbott
Assistant Director for Policy and Evaluation
Direct Dial
(202) 326-2881

January 29, 2004

Mr. Jerald A. Jacobs
Shaw Pittman LLP
2300 N. Street, NW
Washington, DC 20037-1128
Dear Mr. Jacobs:
This letter responds to your request on behalf of the Electronic Retailing Association
(“ERA”) for a Bureau of Competition staff (“BC staff”) opinion letter regarding a proposed
program to review and, if appropriate, recommend discontinuation of DRTV (“direct response
television”) shows (e.g., infomercials) and advertising in other media that contain claims that
appear on their face to be unreasonable or incapable of substantiation.1 You have asked whether,
based on the facts submitted, BC staff would recommend that the Commission bring an
enforcement action challenging implementation of the program. On the basis of information that
you provided in your letter of December 23, 2003, BC staff have no present intention to
recommend a challenge to ERA’s implementation of the DRTV review program as proposed.
This conclusion is entirely dependent on the accuracy of our understanding of pertinent facts
concerning the review program. Our understanding of those facts, in turn, is entirely dependent
on the information that you provided. Our present enforcement intentions might be different
should the DRTV review program not be as described in your letter and other materials.
ERA’s Proposed Program
We understand that ERA is the nation’s principal trade association representing the
electronic retailing/DRTV industry. ERA’s membership includes DRTV producers, media
buyers, product owners, consultants, and other industry firms.

1

Letter of December 23, 2003 from Jerald A. Jacobs to Alden Francis Abbott, Assistant
Director for Policy and Evaluation, Bureau of Competition.

Mr. Jerald A. Jacobs – Page 2
We further understand that ERA proposes to establish a separate unit under the umbrella
of the National Advertising Review Council (“NARC”) to perform the review function.2 We
also understand that the new unit will be funded by ERA, and operate under the rules and
procedures set forth in ERA’s proposal, but would otherwise be under NARC supervision and
independent of ERA. The new unit will initially be staffed by one attorney, experienced in
advertising law and ad substantiation, who will be selected by and work under the supervision of
NARC, although ERA may participate in the interviewing process and provide guidance on
selection standards and process.
We understand that the review program is intended to identify and effectuate
discontinuance of advertising that contains claims that appear to be untrue and lack any form of
credible substantiation. The single mission of the review program is to curtail false or deceptive
DRTV advertising for the benefit of consumers.
We further understand that reviews may be initiated by the new unit on its own initiative
or in response to referrals by any ERA member, consumer, or consumer advocacy group.
Decisions on whether to review a referral will be based on the number of consumers affected, the
type of advertising claims involved – ERA proposes that the reviewing unit focus on advertising
campaigns that involve “high impact” on consumers, such as when health or safety issues are
involved – and how egregious the advertising claims appear to be.
We understand that the reviewing unit will notify the marketer whose advertising
campaign is under review, and may request product samples and additional information and/or
documentation from the marketer as needed. The review will be limited to the primary or core
efficacy or performance claims. The marketer will be required to provide the requested materials
within 15 calendar days, and, within those 15 days, may request a meeting with the reviewer,
which meeting shall be held within 15 calendar days of the request. The reviewing unit will
make a decision and notify the marketer within 15 calendar days after receipt of the final
submission from the marketer or within 15 calendar days of the meeting.
Review Standards
We understand that the review will consist of:
•

2

Determination/identification of claims;

We understand that NARC is a strategic alliance of the advertising industry and the
Council of Better Business Bureaus (“CBBB”), formed in 1971 by the Association of National
Advertisers, Inc., the American Association of Advertising Agencies, Inc., the American
Advertising Federation, Inc., and the CBBB to foster truth and accuracy in national advertising
through voluntary self-regulation.

Mr. Jerald A. Jacobs – Page 3
•

Determination whether substantiation for claims appears reasonable on its face,
e.g.,
i)

Does the substantiation address the claims being made?

ii)

If applicable, does the substantiation meet general standards of competent
and reliable scientific evidence?

We understand that the review is intended to be limited, with the goal of identifying
“outliers” – egregious primary or core advertising claims that on their face appear unreasonable
or incapable of substantiation. The reviewing unit will recommend whether the primary or core
claims that were reviewed should be continued. The reviewing unit is not expected to (but may)
make recommendations regarding how claims should be modified or qualified. The proposed
program does not include provisions for appeal of the reviewing unit’s decisions.
Enforcement
We understand that failure to comply with the reviewing unit’s recommendation to
discontinue a claim will result in a referral to the FTC or other appropriate agency and expulsion
from membership in ERA. Failure to comply with a request for information or other materials
also may result in referral to the FTC or other agency. Decisions of the reviewing unit will be
made public through publication in NARC reports. Review decisions and referrals to the FTC or
another agency will also be announced in NARC press releases. Conclusions of the reviewing
unit will be qualified – e.g., “based on preliminary evaluation, it appears that certain advertising
claims may not be adequately substantiated.”
Finally, we understand that ERA contemplates that publication of the reviewing unit’s
decisions and actions will benefit ERA members and suppliers such as fulfillment companies,
telemarketing companies, and media services by providing information that will assist them in
making independent decisions regarding whether to provide goods or services to a noncompliant company.
Analysis of the ERA Proposed DRTV Review Program
We begin with the observation that the antitrust laws do not forbid legitimate selfregulation that benefits consumers. As the Commission has stated, “[s]uch self-regulatory
activity serves legitimate purposes, and in most cases can be expected to benefit, rather than to
injure, competition and consumer welfare.” American Academy of Ophthalmology, 101 F.T.C
1018 (1983) (advisory opinion); see also American Medical Association, 117 F.T.C. 1091 (1994)
(advisory opinion); American Medical Association, 94 F.T.C. 701, 1029 (1979), aff'd as
modified, 638 F.2d 443 (2d Cir. 1980), aff'd by an equally divided Court, 455 U.S. 676 (1982)
(“AMA”). On the other hand, conduct that unreasonably restricts competition is inconsistent
with the antitrust laws.

Mr. Jerald A. Jacobs – Page 4
We also note at the outset that ERA’s DRTV review program is in many respects similar
to a standard-setting and standard-compliance program, and that precedents dealing with these
kinds of programs are therefore helpful in the analysis of the ERA’s proposed program.3
Specifically, under the review process, recommendations regarding whether ERA members
should continue or discontinue an advertiser’s commercial will depend on whether the
commercial satisfies a standard of reasonableness (capacity to be substantiated) with respect to
the claims made in the commercial. The reasonableness standard, in turn, is solely determined
by ERA through NARC. ERA, through NARC, is thus, in this respect, both a standard-setting
body and an evaluator of compliance with the adopted standard.
As a general principle, industry adoption of private standards and voluntary compliance
with those standards often, if not typically, promote competition by enhancing price and quality
rivalry and by increasing consumer confidence in product quality and thereby increase demand,
and facilitate entry of new sellers. It is inherent in a standards system, however, that some
products may fail to satisfy the standards, and therefore may tend to be excluded from the
marketplace. This effect is not inherently anticompetitive, but an unreasonable restraint on
competition may arise under some circumstances. For this reason, the actions of standard-setting
bodies are subject to scrutiny under the antitrust laws.4 See, e.g., Allied Tube & Conduit Corp. v.
Indian Head, Inc., 486 U.S. 492, 500 (1988); American Soc’y of Mechanical Eng’rs, Inc. v.
Hydrolevel Corp., 456 U.S. 556, 572-73 (1982).
Competitive concerns can arise, for example, when competitors abuse or distort the use
of standards for the purpose of restricting competition, thus imposing harm on the market and
consumers while not providing the procompetitive benefits that can flow from compliance with
industry standards.5 In addition, the adoption of an industry standard may, in effect, be an
3

There is one significant difference between the ERA’s proposed program and
standardization programs. An industry group might voluntarily adopt standard specifications to
ensure that its members offer particularly high quality products or products that appeal to
specific consumer preferences (like a preference for “organic” food). Many consumers may
prefer non-standard offerings (perhaps at lower prices), however, and it is therefore necessary to
consider whether the standardization program will foreclose competition from non-compliant
sellers and thus reduce output and consumer welfare. Because the ERA’s program does not
establish product standards but seeks only to exclude egregiously false claims, it is not necessary
to be concerned about an adverse effect on competitive opportunities for products that are
deceptively promoted.
4

The actions of groups or associations such as ERA comprised of entities with horizontal
business relationships (i.e., competitors) are deemed, under the antitrust laws, to be concerted
action.
5

E.g., Allied Tube, 486 U.S. at 501; Accrediting Commission on Career Schools
and Colleges of Technology, 119 F.T.C. 977 (1995) (advisory opinion; Commission declined to
approve a proposed accreditation standard that would define acceptable tuition levels, reasoning

Mr. Jerald A. Jacobs – Page 5
agreement not to sell non-compliant products.6 Competitive concerns may arise when the
standard is not reasonably necessary to attain procompetitive objectives.7
ERA’s adoption of the proposed review program would be an agreement among
competitors to restrict a certain kind of DRTV advertising, i.e., advertising that does not meet
ERA/NARC substantiation standards. As such, it raises two potential antitrust concerns. First,
the program could be characterized simply as a non-competition agreement, i.e., an agreement
among ERA members, by means of enforcement of a standard, not to compete for the business of
particular advertisers. Second, the expulsion from ERA of a member that refuses to comply with
the review program requirements could be characterized as a group boycott.
BC staff would analyze both of these issues under the “rule of reason” test rather than the
per se test.8 Under a rule of reason test, BC staff weighs the potential for competitive harm
arising from an agreement among competitors against any procompetitive or efficiency benefits
produced by the agreement. If BC staff concludes that the procompetive benefits more than
offset the likely competitive harm, BC staff will not pursue an enforcement action. Given the
facts as we understand them in this instance, it is unlikely that BC staff would conclude that
potential anticompetitive effects arising from the implementation of ERA’s DRTV review
program would outweigh procompetitive benefits. We find therefore that ERA’s DRTV review
program does not merit a staff recommendation to the Commission for enforcement action at this
time. We reach this conclusion for a number of reasons.
First, truthful, non-deceptive advertising promotes competition by providing consumers
with important information about product prices, quality, and availability, among other factors
that consumers consider in their purchasing decisions. See, e.g., Virginia State Board of
Pharmacy v. Virginia Citizens Consumer Council, Inc., 425 U.S. 748, 765 (1976). Agreements
on standards among competitors that restrict truthful, nondeceptive advertising, therefore, have
the potential to restrict competition and harm consumers. See, e.g., American Medical
Association, 94 F.T.C. at 1005. Such agreements harm consumers by raising the cost of finding
the combination of price, service, and quality that best fits their needs and by reducing the
incentive for firms to compete (by preventing them from informing consumers of their prices,
services, or quality). Id. By contrast, false or deceptive advertising does not produce the same
benefits for consumers as truthful advertising, and, therefore, agreements among competitors on

that this would in effect be an agreement among members of the accrediting body to charge no
more than the standard would permit).
6

Id.

7

E.g., American Soc’y of Sanitary Eng’rs, 106 F.T.C. 324 (1985) (consent order).

8

Specifically, BC staff’s analysis would follow the framework set out in the Federal
Trade Commission/Department of Justice Guidelines for Collaborations Among Competitors,
available at http://www.ftc.gov/os/2000/04/ftcdojguidelines.pdf.

Mr. Jerald A. Jacobs – Page 6
standards that are aimed at restricting deceptive advertising present less antitrust concern;
indeed, restricting deceptive advertising may help avoid anticompetitive effects. Calif. Dental
Assn. v. FTC, 526 U.S. 756, 773 n.9 (1999) (“That false or misleading advertising has an
anticompetitive effect, as that term is customarily used, has been long established.”) ERA’s
review program appears to fall into this second class of restrictions.
Second, both the agreement to adopt a standard and the standard itself are not product or
advertiser-specific. Because ERA represents a wide spectrum of marketers that use DRTV
advertising, the agreement would relate to a class of advertising rather than specific products.
That fact would attenuate any adverse consumer impact.
Third, ERA’s proposed program appears to have a significant pro-consumer rationale by
restricting advertising that is deemed to be facially unreasonable or incapable of substantiation.
According to ERA, the overriding purpose of the proposed program is to curtail false or
deceptive DRTV advertising, rather than to restrict competition. The restriction of such
advertising likely would increase consumer confidence in DRTV and make the overall market
more efficient. See Calif. Dental Assn. v. FTC, 526 U.S. at 771-772 (restrictions designed for the
purpose of avoiding false or deceptive advertising might plausibly have a net procompetitive
effect).
Fourth, the review program will be administered under the umbrella of NARC and not
directly by ERA. Although, because of ERA funding and participation in staff interviewing, the
reviewing unit cannot be characterized as fully independent of ERA, there is nonetheless some
degree of separation between the reviewing unit and ERA respecting the actual screening and
decision-making process. This separation tends to lessen the possibility that the program could
be manipulated by horizontal competitors for the purpose of restraining competition for their
products.9 Furthermore, NARC will control the rules and procedures used by the reviewing unit
after formation.
Fifth, while the expulsion of a member for non-compliance with program requirements
could be characterized as a horizontal boycott, there will not be an effect on competition in the
marketing of the expelled member’s product unless two or more members actually compete in
the marketing of that product or reasonable substitutes. Further, even if there is extant
competition with respect to the marketing of that particular product, expulsion of a noncompliant member may not be unreasonably exclusionary. In general, expulsion from a trade
group characteristically is not likely to result in predominantly anticompetitive effects. See
Northwest Wholesale Stationers, Inc. v. Pacific Stationery & Printing Co., 472 U.S. 284, 286
(1985). According to ERA, membership does not have significant competitive ramifications.
Although loss of membership results in the loss of ERA’s trade association services, those
services are not essential to competition or competitors.

9

Evidence to the contrary would cause serious antitrust concerns.

Mr. Jerald A. Jacobs – Page 7
Finally, we understand that ERA plans to encourage members not to deal with marketers
that refuse to comply with the reviewing unit’s procedures and decisions. BC staff would not
recommend enforcement action by virtue of ERA simply encouraging members not to deal with
non-compliant marketers, so long as the actions of the members remain voluntary. By contrast, a
requirement that members refrain from dealing with such marketers could be viewed as a boycott
or an agreement not to compete for that marketer’s business, and therefore may be subjected to
heightened BC staff scrutiny.

Conclusion
For all the reasons stated above, we believe that, on balance, the likely benefits of ERA’s
proposed review program more than offset the potential for competitive harm. On this basis, BC
staff have no present intention to recommend a challenge to ERA’s proposed DRTV review
program.
This letter sets out the views of the staff of the Bureau of Competition, as authorized by
Rule 1.1(b) of the Commission's Rules of Practice, 16 C.F.R. § 1.1(b). Under Commission Rule
1.3(c), 16 C.F.R. § 1.3(c), the Commission is not bound by this staff opinion and reserves the
right to rescind it at a later time. In addition, this Office retains the right to reconsider the
questions involved and, with notice to the requesting party, to rescind or revoke the opinion if
implementation of the proposed program results in substantial anticompetiutive effects, if the
program is used for improper purposes, if facts change significantly, or if it would be in the
public interest to do so.
Sincerely yours,

Alden F. Abbott
Assistant Director
for Policy & Evaluation

